HHS/OIG-Audit--"Review of the 1997 Adjusted Community Rate Proposal for a Region V Risk-Based Managed Care Organization, (A-05-98-00049)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the 1997 Adjusted Community Rate Proposal for a Region V Risk-Based
Managed Care Organization," (A-05-98-00049)
January 14, 1999
Complete Text of Report is available in PDF format
(1.31 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Currently, there is no statutory or regulatory authority governing allowability
of administrative costs included in the adjusted community rate (ACR) process
for determining Medicare capitation rates under risk-based contracts with managed
care organizations (MCO). At a Region V risk-based MCO we identified $1.2 million
in administrative costs that would be considered inappropriate and unallowable
if considered in light of the Medicare program's general principle of paying
only reasonable costs. Examples of the inappropriate costs included bad debt
expenses, monies paid to a trade association, and monies used for public relations,
donations, contributions, gifts, entertainment, and social functions for customers
and employees. The methodology which allows MCOs to apportion administrative
costs to Medicare is flawed and results in Medicare covering a disproportionate
amount of the MCO's administrative costs. Additional reviews of the ACR process,
currently ongoing, disclose similar problems at other MCOs. The results of these
reviews are being shared with the Health Care Health Financing Administration
so that appropriate legislative changes can be considered.